No. 20-8093

IN THE

Martin James Kipp,
Petitioner,

v.
Ron Broomfield, Acting Warden,

Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
CERTIFICATE PURSUANT TO RULE 33
Pursuant to Rule 33.2, I hereby certify that this reply to a brief in

opposition is 14 pages long and therefore complies with the page limit set out
in Rule 33 and was prepared in 13-point Century Schoolbook font.
Respectfully submitted,

CUAUHTEMOC ORTEGA
Federal Public Defender
2?^/^ 4
DATED: August 4, 2021

MARK R. DROZDOW&tf*
Deputy Federal Public Defender
Attorneys for Petitioner
★Counsel of Record

1

